Report No. DODIG-2013-078                   May 1, 2013




              TRICARE Management Activity
               Needs to Improve Oversight
                of Acquisition Workforce
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ACM                           Acquisition Career Manager
AM&S                          Acquisition Management and Support Directorate
AT&L                          Acquisition, Technology, and Logistics
CAE                           Component Acquisition Executive
CAP                           Critical Acquisition Position
CMID                          Contract Management Information Database
COR                           Contracting Officer’s Representative
CORT Tool                     Contracting Officer Representative Tracking Tool
DAU                           Defense Acquisition University
DAWIA                         Defense Acquisition Workforce Improvement Act
FASCLASS                      Fully Automated System for Classification
KLP                           Key Leadership Position
OUSD(AT&L)                    Office of the Under Secretary of Defense for Acquisition,
                                Technology, and Logistics
PEO                           Program Executive Officer
PD                            Position Description
PM                            Program Manager
TMA                           TRICARE Management Activity
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA. VIRGINIA 22350-1 500




                                                                              May 1, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                  TECHNOLOGY, AND LOGISTICS
               DIRECTOR, TRICARE MANAGEMENT ACTIVITY

SUBJECT: TRICARE Management Activity Needs to Improve Oversight of Acquisition
         Workforce (Report No. DODIG-20 13-078)

We are providing this report for review and comment. TRICARE Management Activity
acquisition personnel did not have required certifications for their functional areas,
accurate position descriptions for their assigned duties, or proper training. As a result,
TRICARE Management Activity officials could not verify and be assured that the right
people with the right skills were involved in the acquisition process. Thus, the TRICARE
Management Activity was at an increased risk for fraud, waste, and abuse. We
considered management comments on a draft of this report when preparing the final
report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
Assistant Secretary of Defense for Acquisition responded on behalf of the Under
Secretary ofDefense for Acquisition, Technology, and Logistics; and the Director,
TRICARE Management Activity, commented on a draft of this report. The Director's
comments on Recommendation 1 were responsive. Comments from the Assistant
Secretary ofDefense for Acquisition on Recommendation 2 were partially responsive.
Therefore, we request that the Under Secretary of Defense for Acquisition, Technology,
and Logistics, provide additional comments on Recommendation 2 by May 31, 2013.

If possible, send a Microsoft Word (.doc) file and portable document format (.pdf) file
containing your comments to audyorktown@dodig.mil. Copies of your comments must
have the actual signature of the authorizing official for your organization. We are unable
to accept the /Signed/ symbol in place of the actual signature. If you arrange to send
classified comments electronicaJiy, you must send them over the SECRET Internet
Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 664-8866).



                                     /6. J (!,u._"~
                                          I   l '

                                      Alice F. Carey
                                                                  1
                                      Assistant Inspector General
                                      Readiness, Operations, and Support
Report No. DODIG-2013-078 (Project No. D2012-D000LF-0115.000)                                  May 1, 2013


                Results in Brief: TRICARE Management
                Activity Needs to Improve Oversight of
                Acquisition Workforce
                                                              development, training, and assignment of acquisition
What We Did                                                   workforce personnel. As a result, TMA officials
                                                              could not verify and be assured that the right people
We assessed the status of efforts to improve the              with the right skills were involved in the acquisition
TRICARE Management Activity (TMA) acquisition                 process. Thus, TMA was at an increased risk for
program. Specifically, we determined whether the              fraud, waste, and abuse.
TMA acquisition workforce was adequately trained
and certified.
                                                              What We Recommend
What We Found                                                 We recommend that the Director, TMA, place
                                                              additional emphasis on the identification and
TMA acquisition personnel did not have required               oversight of the acquisition workforce by establishing
certifications for their functional areas, accurate           quality assurance procedures to ensure identification,
position descriptions for their assigned duties, or           assignment, certification, and training of the
proper training.                                              acquisition workforce, and implementation and use of
                                                              the Contracting Officer Representative Tracking Tool.
For the 237 personnel identified in the acquisition           Additionally, the Under Secretary of Defense for
workforce, 52 (22 percent) did not achieve                    Acquisition, Technology, and Logistics, should
certification required for their positions,                   perform a comprehensive review of TMA’s progress
70 (29 percent) did not have position descriptions            on meeting compliance with identification,
with critical acquisition designators, and                    assignment, certification, and training of the
83 (35 percent) did not have position descriptions            acquisition workforce; progress on implementation
with certification requirements.                              and use of the Contracting Officer Representative
                                                              Tracking Tool; and compliance with proper
For the 32 personnel designated as critical acquisition       contracting procedures.
positions or key leadership positions, none met all the
requirements of the position, and 14 personnel did not
have position descriptions with critical acquisition          Management Comments and
designators. Additionally, position descriptions for          Our Response
34 (14 percent) of the 237 personnel included a
                                                              The Assistant Secretary of Defense for Acquisition
critical acquisition position designation. However,
                                                              responded on behalf of the Under Secretary of
TMA officials did not identify the personnel as
                                                              Defense for Acquisition, Technology, and Logistics;
holding critical positions.
                                                              and the Director, TMA, commented on a draft of this
                                                              report. Comments from the Director, TMA were
Also, of the 12 contracts reviewed, TMA acquisition
                                                              responsive. Comments from the Assistant Secretary
personnel did not provide documentation that
                                                              of Defense for Acquisition were partially responsive.
contracting officer’s representatives for 9 contracts,
                                                              Therefore, we request that the Under Secretary of
valued at $39 million, were properly assigned before
                                                              Defense for Acquisition, Technology, and Logistics,
the contract award. Of those same contracts
                                                              provide additional comments. Please see the
reviewed, 9 contracts, valued at $62 million, did not
                                                              Recommendations Table on the back of this page.
have trained contracting officer’s representatives
before the contract award.

This occurred because the component acquisition
executive did not have procedures to adequately
monitor the acquisition workforce and did not place
the required emphasis on the identification,

                                                          i
Report No. DODIG-2013-078 (Project No. D2012-D000LF-0115.000)                     May 1, 2013

Recommendations Table

         Management                    Recommendations                No Additional
                                      Requiring Comment             Comments Required
Under Secretary of Defense for  2
Acquisition, Technology, and
Logistics
Director, TRICARE Management                                    1.a.,1.b.,1.c.(1),1.c.(2),
Activity                                                        1.c.(3),1.c.(4),1.c.(5)
Please provide comments by May 31, 2013.




                                         ii
Table of Contents

Introduction                                                                   1

      Objective                                                                1
      Defense Acquisition Workforce Improvement Act and
         Defense Acquisition Corps                                            1
      TRICARE Management Activity and Acquisition Management                  1
      DoD Training and Certification                                          2
      Internal Controls Not Effective for Maintaining Oversight of
         TRICARE Management Activity’s Acquisition Workforce                   3

Finding. Acquisition Workforce Oversight Was Not Effective                     4

      Acquisition Personnel Did Not Meet Certification Requirements and
        Position Descriptions Lacked Required Information                     4
      Component Acquisition Executive Did Not Properly Manage Critical
        Acquisition Positions and Key Leadership Positions                    7
      Designation and Training of Contracting Officer’s Representatives
        Needed Improvement                                                    11
      Conclusion                                                              14
      Recommendations, Management Comments, and Our Response                  15

Appendixes

      A. Scope and Methodology                                                19
           Acquisition Workforce                                              19
           Critical Acquisition Positions and Key Leadership Positions        19
           Contracting Officer’s Representatives                              19
           Use of Computer-Processed Data                                     20
           Use of Technical Assistance                                        21
           Prior Coverage                                                     21

      B. Statistical Sample                                                   23
            Population                                                        23
            Sample Plan                                                       23
            Statistical Projection and Interpretation                         23

Management Comments

      Under Secretary of Defense for Acquisition, Technology, and Logistics   27
      TRICARE Management Activity                                             28
Introduction
Objective
Our objective was to assess the status of efforts to improve the TRICARE Management
Activity (TMA) acquisition program. Specifically, we determined whether the TMA
acquisition workforce was adequately trained and certified. See Appendix A for a
discussion of our scope and methodology.

Defense Acquisition Workforce Improvement Act and
Defense Acquisition Corps
In 1990, Congress enacted the Defense Acquisition Workforce Improvement Act
(DAWIA), amended January 3, 2012, to improve the effectiveness of the civilian and
military acquisition workforce through enhanced education, training, and career
development and, thereby, improve the acquisition process. DAWIA requires DoD to
establish career paths for its employees who want to pursue careers in acquisition.

The Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
(OUSD[AT&L]) manages the Defense Acquisition Corps (Acquisition Corps). The
Acquisition Corps is a pool of highly qualified members of the Acquisition, Technology,
and Logistics (AT&L) Workforce used to fill critical acquisition positions (CAPs) and
key leadership positions (KLPs). Also, the Acquisition Corps consists of individuals who
met DAWIA standards and received approval from the USD(AT&L) or the component
acquisition executive (CAE).

TRICARE Management Activity and
Acquisition Management
TMA is responsible for managing the TRICARE health care program that serves over
9.7 million active duty Service members, National Guard and Reserve members, retirees,
their families, survivors, and certain former spouses worldwide. As a major component
of the Military Health System, TRICARE brings together the health care resources of the
uniformed Services and supplements them with a network of civilian health care
professionals, institutions, pharmacies, and suppliers to provide access to high quality,
health care services while maintaining the capability to support military operations.

The CAE is responsible for all acquisition functions at TMA. The CAE, appointed by the
Secretary of Defense, develops and maintains an acquisition career management program
to ensure the development of a competent, professional acquisition workforce that
supports TMA’s mission. The CAE identifies TMA’s AT&L Workforce positions and
implements a budget strategy that reflects the acquisition workforce’s developmental
needs and TMA’s organizational structure. Additionally, the CAE assesses the current




                                          1
skills of his acquisition workforce; identifies short and long-term needs; and establishes
plans, including recruitment and retention strategies, for obtaining the resources and
skills that the acquisition workforce needs to meet TMA’s future mission requirements.
The CAE responsibilities reside with the Director, TMA.

The acquisition career manager (ACM) is responsible for ensuring that the TMA
Acquisition Career Management Program and TMA’s acquisition workforce meet
statutory requirements. Specifically, the ACM manages the identification and
development of the acquisition workforce, including identifying staffing needs, training
requirements, and other workforce development strategies.

The TMA Acquisition Management and Support Directorate (AM&S) operates as the
primary contracting activity supporting TMA’s mission. The mission of the AM&S is to
provide acquisition support to the Military Health System through effective business
relationships and transactions. TMA had an acquisition budget of $18.8 billion in
FY 2012.

DoD Training and Certification
In DoD, DAWIA certification is a means of determining whether personnel are properly
trained and qualified for a specific job. The DAWIA certification process includes basic
or core competencies that the acquisition workforce must complete and includes
functional competencies tailored to specific career fields. The basic, core, and functional
competencies include the knowledge, skills, and abilities necessary to facilitate business
decisions that help DoD deliver goods and services to the warfighter. Consequently,
agencies expect a person in an acquisition workforce position to possess the DAWIA
competencies to perform in his or her current assignment.

The AT&L Workforce is composed of 15 specific career field/positions, including
Program Management; Contracting; Business, Cost Estimating, and Financial
Management; Information Technology; Production, Quality, and Manufacturing; Systems
Planning, Research, Development and Systems Engineering; and Test and Evaluation.
Civilian personnel from various occupational series fill these career field/positions. TMA
uses the training and certification levels that the Defense Acquisition University (DAU)
establishes in the DAU Career Field Certification and Core Plus Development Guides.
DAU has a guide for each level: Level 1 (Entry), Level II (Intermediate), and Level III
(Advanced). DAU divides the guide into at least four major sections: Types of
Assignments, Core Certification Standards, Unique Position Training Standards, and
Core Plus Development Guide. To achieve certification, acquisition workforce personnel
must meet core acquisition training, functional training, education, and experience
standards before applying for certification through their respective DoD Component
processes.




                                          2
Personnel in the AT&L Workforce typically have 24 months1 from the time that they
assume an acquisition position to meet these standards.

DoD Instruction 5000.66, “Operation of the Defense Acquisition, Technology, and
Logistics Workforce Education, Training, and Career Development Program,”
December 21, 2005, states that the heads of DoD Components must design policies and
processes to ensure that agencies select the best qualified persons for AT&L Workforce
positions. The Instruction also states:

                 the primary objective of the AT&L Workforce Education, Training, and Career
                 Development Program is to create a professional, agile, and motivated workforce that
                 consistently makes smart business decisions, acts in an ethical manner, and delivers
                 timely and affordable capabilities to the warfighter.

Section E2.2.7 of the Instruction defines certification as the level to which a member of
the AT&L Workforce achieved functional and core acquisition competencies required by
a specific career field.

Internal Controls Not Effective for Maintaining Oversight
of TRICARE Management Activity’s
Acquisition Workforce
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the identification, certification, and training of TMA’s acquisition
workforce. Specifically, the CAE did not have procedures in place to monitor the proper
identification, development, and training of acquisition workforce personnel.
Additionally, the CAE did not properly manage CAPs and KLPs and did not establish a
process to monitor and designate properly trained contracting officer’s representatives
(CORs) before the contract award occurred. We will provide a copy of the report to the
senior officials at TMA.




1
 In a September 7, 2011, memorandum, the Director, Defense Procurement and Acquisition Policy and
Director, Human Capital Initiatives, granted a 16-month extension to acquisition workforce members
encumbering contracting coded positions, as of September 30, 2011, and who did not meet their training
standards. Therefore, those members would have 40 months instead of 24 months (from their position start
date) to achieve the DAWIA certification level that their career field/positions require under the new
standards.




                                                   3
Finding. Acquisition Workforce Oversight
Was Not Effective                   2
TMA acquisition personnel did not have the required DAWIA certifications for their
functional areas, accurate position descriptions (PDs) for their assigned duties, or proper
training. Specifically:

    •    for the 237 personnel identified in the acquisition workforce, 52 (22 percent) did
         not achieve DAWIA certification required for their positions, 70 (29 percent) did
         not have PDs with critical acquisition designators, and 83 (35 percent) did not
         have PDs with DAWIA certification requirements.

    •    for the 32 personnel designated as CAPs and KLPs, none met all the requirements
         of the position, and 14 personnel did not have PDs with critical acquisition
         designators. Additionally, TMA did not designate an additional 14 acquisition
         personnel as CAPs or designate an additional 4 positions as KLPs. Finally, PDs
         for 34 (14 percent) of the 237 personnel included a CAP designation. However,
         TMA officials did not identify these personnel as holding critical positions.

    •    of the 12 contracts reviewed, TMA acquisition personnel did not provide
         documentation that CORs for 9 contracts, valued at $39 million, 3 were properly
         assigned before the contract award. Of those same contracts reviewed,
         9 contracts, valued at $62 million, did not have trained CORs before the contract
         award.

This occurred because the CAE did not have procedures to adequately monitor the
acquisition workforce and did not place the required emphasis on the identification,
development, training, and assignment of acquisition workforce personnel. As a result,
TMA officials could not verify and be assured that the right people with the right skills
were involved in the acquisition process. Thus, TMA was at an increased risk for fraud,
waste, and abuse.

Acquisition Personnel Did Not Meet Certification
Requirements and Position Descriptions Lacked
Required Information
Personnel who TMA identified as acquisition workforce did not achieve the DAWIA
certification required for their career fields/positions or have position waivers.
Additionally, PDs for personnel in the TMA-identified acquisition workforce did not
have critical acquisition designators or certification requirements.




2
  To achieve certification, acquisition workforce personnel must meet core acquisition training, functional
training, education, and experience standards.
3
  All contract values in this report include the value of the base year and potential options.



                                                     4
Acquisition Workforce Personnel Need to Meet
Certification Requirements
Personnel in the TMA-identified acquisition workforce did not attain DAWIA
certifications required for their career field/positions, and none had valid position
waivers. According to the TMA Acquisition Career Management Program Handbook,
February 2011, the ACM, with oversight from the CAE, designates positions as
acquisition workforce positions, and personnel from TMA Human Resources division
“code” the positions in the Defense Civilian Personnel Data System.

TMA experienced significant growth in its acquisition workforce between 2008 and
2012. For example, TMA officials reported a total of acquisition workforce personnel as
follows: 78 in FY 2008 and 178 in FY 2010. TMA officials identified 237 acquisition
personnel in June 2012. We reviewed a statistical sample4 of DAWIA certifications,
position waivers, and PDs for those 237 personnel. Although personnel in acquisition
coded positions have 24 months from appointment to their positions to achieve DAWIA
certification, the Defense Procurement and Acquisition Policy granted a 16-month
extension to some contracting personnel. According to DoD Instruction 5000.66,
personnel who do not meet certification requirements require position waivers to remain
in the positions.

We estimate that 52 (22 percent) of the 237 personnel did not achieve the DAWIA
certification required for their positions. The personnel in our statistical sample who did
                                            not achieve DAWIA certification exceeded the
     The personnel in our statistical       allowed timeframe by 99 to 1,598 days. For
       sample who did not achieve           example, a systems requirements specialist
   DAWIA certification exceeded the         within the Purchased Care System Integration
        allowed timeframe by 99 to          branch surpassed the allowed timeframe for
                1,598 days.                 attaining at least a Level II certification by
                                            1,598 days. Additionally, a project manager in
the Defense Health Information Management System office, who ensures decisions are
based on program requirements, surpassed the allowed timeframe for attaining a Level III
certification by 744 days. TMA officials did not grant position waivers for either person
and, as of August 31, 2012, these personnel did not achieve the DAWIA certification
required for the positions.

Finally, TMA officials provided a position waiver for a director within the TRICARE
Policy and Operations Directorate. However, the director surpassed the target date in the
waiver by 1,659 days. Based on the DoD Desk Guide for AT&L Workforce Career
Management (DoD Desk Guide), January 10, 2006, and the TMA Acquisition Career
Management Program Handbook, the director should have attained a Level III
certification.




4
    Please refer to Appendix B for details on statistical projections.
According to the ACM, TMA officials established efforts to correct the identification and
“coding” of their acquisition workforce by tasking a contractor in April 2012 to assess the
designation of acquisition workforce personnel at TMA. The ACM also stated that,
pending the results of the review, AM&S personnel would work with personnel from
TMA Human Resources Division to correct inaccurate “coding” of the positions, and
when complete, TMA officials would take administrative action against personnel who
did not meet certification requirements. TMA must maintain a fully trained and certified
acquisition workforce. Basic, core, and functional competencies include the knowledge,
skills, and abilities necessary for an acquisition workforce to facilitate business decisions
and help DoD deliver goods and services to the warfighter. The conditions identified
occurred because the CAE did not place adequate emphasis on acquisition workforce
personnel meeting specific career field/position goals and did not enforce the certification
requirement for the acquisition workforce. The Director, TMA, should ensure that all
personnel achieve the required position certification or take administrative action to
remove personnel from acquisition workforce positions. TMA should involve the right
people with the right skills in the acquisition process. Personnel who do not achieve the
required training and certifications could put TMA at a higher risk for fraud, waste, and
abuse in its acquisitions and should not occupy AT&L Workforce positions.

Position Descriptions Needed Critical Designations, Including
Acquisition Designations and Certification Requirements
We estimate that 70 (29 percent) of the 237 personnel in the acquisition workforce did
not have an acquisition workforce designation on their PDs as required by the DoD Desk
Guide. In addition, we estimate that PDs for 83 (35 percent) personnel did not specify a
DAWIA certification requirement in accordance with the DoD Desk Guide.

We estimate that PDs for 70 (29 percent) personnel in the acquisition workforce did not
include an acquisition workforce designation. PDs are significant tools that agencies use
to hire personnel with desired skills to perform specific acquisition duties. PDs should
correspond with DAU guidance. According to the DAU’s Career Field Certification and
Core Plus Development Guide, PDs should include the specific certification levels.
However, TMA did not code “acquisition” on a member’s PD for a program analyst.
Conversely, the PD included DAWIA certification requirements for Level II in Program
Management. According to the DoD Desk Guide, all AT&L Workforce positions require
an incumbent to achieve certification in a career field at one of three certification levels.

In addition, we estimate 83 (35 percent) PDs did not specify a DAWIA certification
requirement. PDs should identify whether the CAE designates the occupants as AT&L
Workforce personnel. However, a PD, for a contract specialist, did not include a
DAWIA certification requirement, but personnel from TMA Human Resources Division
“coded” the PD as an acquisition workforce position.
According to the ACM, no one reviewed PDs at TMA until she, the ACM, arrived in
                                            June 2009. After the ACM notified personnel
      According to the ACM, no one          from TMA Human Resources Division of
     reviewed PDs at TMA until she,         improperly “coded” PDs, she still found that
     the ACM, arrived in June 2009.         they did not correct some of the PDs. The
                                            ACM should have performed annual position
reviews to verify a position’s suitability for an AT&L Workforce designation, and before
TMA’s recruitment, reorganization, or when duties and responsibilities of TMA-
identified positions changed. If she had done so, TMA would have been able to ensure it
had the right people with the right skills involved in its acquisition process. PDs must
reflect the requirements and expectations of the employee’s duties. Without accurate
PDs, personnel occupying those positions may not understand the designations’
corresponding requirements or possess the expertise and experience required of the
positions, and this may put TMA at an increased risk of not meeting its mission
requirements, specifically regarding the TRICARE health care program. The Director,
TMA, should establish procedures to verify that the ACM reviews PDs at least annually,
and personnel from TMA Human Resources division revise PDs as necessary.

Component Acquisition Executive Did Not Properly
Manage Critical Acquisition Positions and Key
Leadership Positions
TMA-designated CAPs and KLPs did not meet position requirements, PDs did not have
required CAP and KLP designations, and identification of mandatory CAPs and KLPs
needed improvement. Specifically, of the 32 personnel who TMA designated as CAPs
and KLPs, none met all position requirements, and 14 personnel did not have critical
acquisition designators on their PDs. Additionally, TMA did not designate an additional
14 acquisition personnel as CAPs or designate an additional 4 positions as KLPs as
required. Finally, we estimate that PDs for 34 (14 percent) of the 237 personnel included
a CAP designation. However, TMA did not identify the personnel as holding critical
positions.

Critical Acquisition Positions and Key Leadership Positions Did
Not Meet Position Requirements
None of the 32 personnel who TMA designated as CAPs or KLPs met all position
                                         requirements, such as having met
    None of the 32 personnel who TMA     certification requirements, having tenure
   designated as CAPs or KLPs met all    agreements on file, and being members of
           position requirements.        the Acquisition Corps. According to the
                                         TMA Acquisition Career Management
Program Handbook, the ACM, with oversight from the CAE, designates acquisition
positions as CAPs and KLPs.

The DoD Desk Guide states CAPs are a subset of acquisition workforce positions. The
CAE designates CAPs based on the criticality of that position to the acquisition program,
effort, and function that it supports. Typically, CAPs are senior civilian and Active Duty



                                      7
Component positions with significant responsibilities, primarily involving supervisory or
management duties, in the acquisition system.

The DoD Desk Guide also states that KLPs are a subset of CAPs, designated by the CAE,
that have significant leadership responsibilities. KLPs include all critical major program
positions that require attention from the CAE and AT&L Workforce personnel regarding
qualifications, accountability, and tenure. In order for the CAE to select a CAP, the
selectee must be a member of the Acquisition Corps, become a member, or obtain a
position waiver. The selectee must also have a Level III DAWIA certification and must
sign a written tenure service agreement.

Critical Acquisition Positions and Key Leadership Positions Did Not
Meet Certification Requirements
The CAE designated 32 of 237 acquisition workforce positions as CAPs and KLPs, and
                                               11 of the 32 personnel did not achieve
         The CAE designated 32 of 237          mandatory acquisition certifications.
       acquisition workforce positions as      According to DoD Instruction 5000.66, all
         CAPs and KLPs, and 11 of the          CAPs and KLPs require a Level III
   32 personnel did not achieve mandatory      certification or equivalent within
            acquisition certifications.        24 months of assignment. Further, CAPs
                                               and KLPs are not allowed to obtain
certifications through waivers, only through meeting mandatory education, training, and
experience requirements.

Of the 11 personnel who did not achieve their Level III DAWIA certifications,
4 personnel achieved a Level II, 2 personnel achieved a Level I, and 5 personnel did not
achieve any DAWIA certification. One of the individuals who did not hold any
certification was a Deputy Program Executive Officer (PEO) for the Defense Health
Services Systems. He was responsible for participating fully in all aspects of planning,
directing, managing, coordinating, reporting, and evaluating the program executive
office’s mission and programs. As the Deputy PEO, he shared oversight and
management responsibility for the development, acquisition, distribution, and
deployment of highly specialized and dynamic information systems with the principal
emphasis on managing the business and acquisition aspects. Personnel in a CAP or KLP
must possess the proper skills and expertise to lead and support the organization.
Without the required expertise, TMA cannot be assured that it will meet successfully its
acquisition mission requirements.




                                       8
Critical Acquisition Positions and Key Leadership Positions Did Not
Have Required Tenure Agreements
None of the 32 personnel designated as CAPs or KLPs had tenure agreements.
                                            DoD Instruction 5000.66 states that personnel
         None of the 32 personnel           selected as CAPs that are not KLPs must
     designated as CAPs or KLPs had         remain in that specific position for a minimum
            tenure agreements.              of 3 years and must sign a tenure service
                                            agreement. Some acceptable deviations to the
3-year tenure requirement are promotion, reassignment, separation, retirement, removal
for cause, reduction-in-force, mobilization, assignment to military, or elimination of the
position. However, an agreement still must be signed. In exceptional circumstances, the
CAE may waive CAP tenure requirements; however, the Instruction requires DoD
Components to document a member’s release from a position tenure agreement in a
Tenure Waiver. The Instruction requires personnel who the CAE assigns to KLPs to
remain in the position for a tenure period that the CAE establishes and must have a
signed, tenure agreement. The period is based on the unique requirements for the specific
program or effort to be performed, such as significant milestones, events, or efforts.
Generally, KLP tenure agreements should be a minimum 3-year period as required by
DAWIA. However, as of August 9, 2012, CAPs and KLPs did not have tenure
agreements or valid waivers for the tenure requirement. For example, the Deputy PEO
for Joint Medical Information Systems did not sign a 3-year tenure agreement, as
required in the PD. The tenure agreement was a condition of employment and
appointment. Joint Medical Information Systems PEO projects are technically complex,
highly sensitive systems supporting the health care of over 9.7 million beneficiaries
worldwide. The Deputy PEO makes final decisions on controversial issues that cut
across organizational lines, devises plans, and develops long-term milestones, which
ensure the synchronization of all assigned programs with the ultimate goal of fielding the
most effective equipment/systems in support of warfighters and the Military Health
System. The Director, TMA, must develop and enforce tenure agreement requirements
that provide the acquisition workforce the stability and continuity to accomplish the long-
term milestones of the program.

Membership in the Defense Acquisition Corps Not Enforced for
Personnel in Critical Positions
Thirty of the 32 personnel designated as CAPs and KLPs were not members of the
                                         Acquisition Corps. Also, TMA had
       Thirty of the 32 personnel        eight personnel occupying KLPs, such as the PEO
     designated as CAPs and KLPs         for the Joint Medical Information Systems, who
        were not members of the          were not part of the Acquisition Corps and did not
           Acquisition Corps.            hold position waivers. The purpose of the
                                         Acquisition Corps is to create a pool of highly
qualified personnel to fill CAPs and KLPs. Becoming a member of the Acquisition
Corps is a critical step for advancing in the field. Acquisition Corps professionals
demonstrate their exceptional analytical and decision making capabilities, job
performance, and qualifying experience to lead the acquisition workforce. Membership




                                       9
in the Acquisition Corps is required for assignment to all CAPs and KLPs, and there is no
24-month grace period to obtain membership. Personnel selected to CAPs and KLPs
must be in the Acquisition Corps or be able to become a member before assignment.
Although membership into the Acquisition Corps cannot be waived for a person, the
membership requirements can be waived for the position. Individuals must meet
Acquisition Corps requirements to become a member.

Individuals Designated in Critical Positions Did Not Meet
Position Requirements
Personnel who TMA designated as CAPs or KLPs did not meet all position requirements
because, according to the ACM, TMA never performed a qualification review of
individuals designated as CAP or KLP. As a result, some of the personnel assigned to
CAPs and KLPs are not qualified to occupy those critical and leadership positions. The
Director, TMA should establish procedures to validate that all acquisition workforce
personnel designated as CAPs or KLPs are certified to their appropriate levels, are
members of the Acquisition Corps, and sign tenure agreements.

Position Descriptions Did Not Have Critical Acquisition Position
and Key Leadership Position Designations
PDs for 14 personnel did not have required CAP and KLP designations. The DoD Desk
Guide states that agencies should annotate AT&L Workforce position information (CAP
and KLP designation, tenure period, and AT&L career field certification level) on the
cover sheet of the PD. Since PDs are available to both the incumbent and management
officials, having this information on the PD cover sheets will ensure that personnel from
TMA Human Resources Division and the incumbents know that the CAE designated the
positions as AT&L Workforce positions and understand the designations’ corresponding
requirements. In addition, officials responsible for AT&L Workforce positions should
ensure that those positions are reviewed periodically to determine applicability of the
AT&L Workforce designation.

Personnel from TMA Human Resources Division did not include CAP designations in
PDs for 14 of the 32 personnel who TMA identified as CAPs. Finally, we estimate that
PDs for 34 (14 percent) of the 237 personnel included a critical acquisition workforce
designation. However, TMA did not identify them as a CAP.

This condition occurred because the ACM did not annually review and validate PDs for
AT&L Workforce positions to ensure that they accurately reflected CAP or KLP
designations.  The ACM agreed that TMA did not review PDs and stated that personnel
from TMA Human Resources Division automatically annotated “CAP” on PDs not
realizing that “CAP” was an official acquisition workforce position with certification and
tenure requirements. The Director, TMA, should ensure the ACM review and personnel
from TMA Human Resources Division revise PDs for personnel assigned to AT&L
Workforce positions, so the PDs accurately reflect CAP designations.




                                        10
Identification of Mandatory Critical Acquisition Positions and
Key Leadership Positions Needs Improvement
Finally, TMA did not designate an additional 14 acquisition personnel as CAPs and did
not designate an additional 4 positions as KLPs as required. The CAE did not designate
                                         those mandatory positions as CAP and KLP in
    The CAE did not designate those      TMA’s workforce as required. The DoD Desk
    mandatory positions as CAP and       Guide states that the CAE will designate CAPs
         KLP in TMA’s workforce          based on the criticality of those positions to the
               as required.              acquisition program, effort, or function they
                                         support. In addition, the DoD Desk Guide states
that it is mandatory that the CAE designate certain positions as CAPs or KLPs. For
example, positions that the CAE must designate as CAPs include PEOs, program
managers (PMs) and deputy PMs for Major Acquisition Information Systems programs,
PMs and deputy PMs for significant nonmajor defense acquisition programs, senior
contracting officials, military AT&L Workforce positions that must be filled by officers
ranked O-5 and above, and AT&L Workforce personnel in the senior executive service.
In addition, PEOs, PMs, and deputy PMs for Major Acquisition Information Systems
should be KLPs.

AM&S personnel identified 32 acquisition workforce positions as being CAPs and
9 positions as being KLPs. Of the TMA-identified acquisition workforce, the CAE
should have identified an additional 14 personnel as occupying CAPs and at least an
additional 4 positions as KLPs. The CAE did not identify PMs and Deputy PMs as CAPs
or KLPs as required. In some instances, individuals were on the same PD; yet, some
were designated as CAP and others were not. In another instance, the Deputy PEO was
designated as a CAP. However, the PEO in the same program office was not. In
addition, the Deputy CAE was not designated as a CAP; however, the position was listed
as a KLP. Finally, the CAE did not identify three senior executive service members as
CAPs.

According to the TMA Acquisition Career Management Program Handbook, the CAE
should review and revalidate acquisition workforce positions annually. Notwithstanding,
the ACM stated that TMA did not review CAP designations. The Director, TMA, should
establish procedures that require the ACM to review annually all acquisition workforce
positions that are required to be designated as CAPs and KLPs.

Designation and Training of Contracting Officer’s
Representatives Needed Improvement
From a nonstatistical sample of 12 contracts, AM&S personnel did not provide
documentation that CORs for 9 of 12 TMA contracts, valued at $39 million, were
properly assigned before the contract award, and 9 of the 12 contracts, valued at
$62 million, did not have trained CORs before the contract award.




                                         11
Contracting Officers Did Not Properly Designate Contracting
Officer’s Representatives
Contracting officers did not designate CORs for 9 of 12 contracts before the contract
award as required by DoD Guidance. DoD Memorandum, “Monitoring Contract
Performance in Contracts for Services,” August 22, 2008, states that the COR is a
representative of the requiring activity, nominated by the requiring activity, and
designated by the contracting officer. When a COR is required, the contracting officer
must provide a list of proposed responsibilities for the COR to the requiring activity. The
requiring activity must then submit nominations for CORs to the contracting activity.
The COR nomination package must address the qualifications of the prospective COR
and affirm that the prospective COR and the prospective COR’s supervisors understand
the importance of the designated functions. The COR is the technical liaison between the
contractor and the contracting officer and is responsible for verifying satisfactory contract
                                                 performance and timely delivery as set
     Proper designation and training help        forth in the contract. COR designation
     protect the agency and the COR from         letters notify CORs of the extent of their
    adverse effects of a COR acting beyond       authority and responsibility for overseeing
      the scope of his or her authority or       contractor performance. Proper
           acting without authority.             designation and training help protect the
                                                 agency and the COR from adverse effects
of a COR acting beyond the scope of his or her authority or acting without authority.

TMA acquisition personnel did not provide documentation that 9 of 12 TMA contracts
had CORs properly assigned before the contract award. Contracting officers designated
five CORs after the contract award not in accordance with DoD Guidance. Additionally,
contracting officers did not assign three of those five CORs until approximately 6 months
or longer after the contract award. Furthermore, there was no written designation of a
COR for 4 of the 12 contracts.

For one contract, a COR was not appointed to provide oversight until approximately
10 months after the contract award date. The contracting officer provided us a
designation letter signed and dated the day that we made the document request. This
contract states that the COR is responsible for inspection and acceptance of all items,
incoming shipments, documents, and services. Although the contracting officer did not
designate the COR until 10 months after the contract award, the contract had deliverables
due 2 months, 3 months, and 4 months after the contract award. For another contract,
awarded in February 2012 for $3.2 million, as of September 2012, the contracting officer
still had not assigned a COR. This contract outlined COR responsibilities pertaining to
life threatening emergencies, incurring additional costs, replacement of key contracting
personnel, and conducting formal test planning. Contracting officers did not properly
designate CORs to oversee contracts because the CAE did not establish an oversight
process for verifying that contracting officers carried out specific required administrative
functions on TMA-funded contracts.




                                            12
Contracting Officer’s Representatives Lacked the Required
Training to Perform Their Duties
Contracting officers did not verify that on 9 of 12 contracts, COR designees achieved the
training required to perform their duties. USD(AT&L) Memorandum, “DoD Standard
for Certification of Contracting Officer’s Representatives (COR) for Service
Acquisitions,” March 29, 2010, identifies competencies, experience, and minimum
training needed for successful performance as a COR for three types of service
acquisition contracts. In addition, TMA’s Acquisition Career Management Program
Handbook also identifies supplementary training that CORs must complete before being
assigned to oversee contracts.

Also, the Defense Federal Acquisition Regulation Supplement provides requirements for
contract oversight and training. Specifically, the Defense Federal Acquisition Regulation
Supplement 201.602-2, “Responsibilities,” requires the COR to be qualified by training
and experience commensurate with the responsibilities delegated.

According to DoD Memorandum, “Monitoring Contract Performance in Contracts for
Services,” August 22, 2008, trained and ready CORs are critical. CORs ensure that
contractors comply with all contract requirements and that overall performance is
commensurate with the level of payments made throughout the life of the contract.
Further, requiring activities shall ensure that contracting officers assign properly trained
CORs before the contract award.

We reviewed the training for CORs assigned to 12 contracts, valued at $73 million; of
                                                which, 9 contracts did not have fully
      We reviewed the training for CORs         trained CORs before the contract awards.
      assigned to 12 contracts, valued at       Additionally, only two of the nine CORs
    $73 million; of which, 9 contracts did      completed the training after the contract
    not have fully trained CORs before the      awards. For example, the COR designated
                contract awards.                to oversee a contract, valued at
                                                $7.7 million, had duties to ensure
contractor compliance for fraud case referrals to Defense Criminal Investigative Service,
TMA Program Integrity, and Department of Justice. However, the COR did not achieve
any of the minimum required COR training, including acquisition ethics training, before
or after the contract award. Therefore, only 3 of the 12 contracts had fully trained CORs
before the contract awards. The COR can be a deciding factor in whether or not a
contract is successful. The COR helps ensure that the DoD receives the value of the
goods and services purchased.

Procedures Needed to Monitor and Verify Contracting Officer’s
Representative Designations and Training
TMA lacked procedures to monitor and verify that CORs were properly designated and
trained. According to USD(AT&L) Memorandum, “Deployment of the Department of
Defense (DoD) Contracting Officer Representative Tracking Tool (CORT Tool),”
March 21, 2011, the CORT Tool capability allows DoD Components and agencies to




                                          13
monitor COR nominations, appointments, terminations, and training certifications across
DoD. The CORT Tool allows users to identify available and qualified CORs and tracks
all training completed by the COR. Additionally, the CORT Tool will not allow an
appointment of a COR to a contract if the COR is missing the required courses.
Furthermore, the Memorandum states that all Military Departments, Defense agencies,
and DoD Field Activities, shall use this Web-accessible tool for all service contracts
awarded with a value greater than the $3,000 micro-purchase threshold and in accordance
with the deployment dates of their respective organizations. OUSD(AT&L) personnel
directed TMA and AM&S to comply with the CORT Tool requirements. The AM&S
deployment plan states that PMs will ensure that all CORT Tool users, to include CORs
they are responsible for, are registered no later than March 30, 2012.
We reviewed TMA’s implementation of the CORT Tool and found that the CORT Tool
only included 16 CORs. AM&S personnel stated that the CORT Tool listed so few
CORs on TMA-funded contracts because TMA contracting operations division personnel
did not hold CORs and contracting officers responsible for inputting and fulfilling CORT
Tool requirements.
TMA acquisition personnel must maintain a comprehensive and updated database to
identify CORs designated to oversee TMA-funded contracts. According to the U.S.
Merit Systems Protection Board report, “Contracting Officer Representatives: Managing
the Government’s Technical Experts to Achieve Positive Contract Outcomes,”
December 2005, CORs provide the technical expertise necessary to convey the
Government’s technical requirements, oversee the technical work of the contractor, and
ensure that deliverables meet the Government’s technical requirements. Furthermore,
even the best-managed contract is not successful if its deliverables fail to meet the
technical requirements of the Government. TMA personnel should maintain full
visibility over the entire acquisition workforce to include CORs. Without effective
oversight, TMA could not ensure that all contracting actions were staffed with qualified
and trained CORs. The Director, TMA, should implement the CORT Tool to allow TMA
acquisition personnel to monitor COR nominations, appointments, terminations and
training certifications against contracts awarded and funded by TMA. Additionally, to
ensure that contracting officers properly designate and notify CORs of the extent of their
authority and responsibility for overseeing a contractor’s performance, the Director,
TMA, should establish procedures to verify that contracting officers properly issue
designation letters before the contract award. Finally, the Director should establish
quality control procedures to verify that contracting officers designate properly trained
CORs before the contract award.

Conclusion
The CAE did not have procedures in place to monitor the proper identification,
development, and training of acquisition workforce personnel. Additionally, the CAE did
not properly manage CAPs and KLPs. Certification recognizes the level to which a
member of the acquisition workforce has achieved functional and core acquisition
competencies. Allowing unqualified individuals to work in acquisition positions
increases the risk that TMA will not meet its acquisition goals and objectives. Finally,
the CAE did not establish a process to monitor or designate properly trained CORs before



                                       14
the contract award occurred. CAE oversight is needed to verify that properly trained
CORs are assigned to each contract. Lack of properly assigned and trained CORs
increased the risk that contractor performance was not adequately monitored. The CAE
needs to initiate prompt action to ensure that the right people with the right skills are
involved in the acquisition process, thus reducing the risk for fraud, waste, and abuse.
Additionally, the USD(AT&L) should perform a comprehensive review on TMA’s
progress on meeting compliance with identification, assignment, certification, and
training of the acquisition workforce; progress on implementation and use of the CORT
Tool; and compliance with proper contracting procedures.

Recommendations, Management Comments, and
Our Response
1. We recommend the Director, TRICARE Management Activity:

     a. Develop a time-phased plan for all acquisition workforce personnel that did
not attain position required certifications within allowed timeframes to obtain
certifications, and as appropriate, initiate administrative action to remove them
from acquisition related positions.

TRICARE Management Activity Comments
The Director, TMA, agreed and stated that his office assigned the Deputy CAE to
implement corrective actions within 12 months for all identified deficiencies.
Additionally, the Director stated that individuals who did not meet their required
certification level will be required to work with their supervisors to develop a plan to
obtain the necessary certification. Individuals who did not meet their required
certification level commensurate with their PDs and, according to the approved
timeframe, will be removed from their current acquisition position until the training is
completed.

Our Response
Comments from the Director, TMA were responsive. No further comments are required.

    b. Implement the Contracting Officer Representative Tracking Tool to
nominate, appoint, monitor and terminate an individual as a contracting officer’s
representative against contracts awarded and funded by TRICARE Management
Activity.

TRICARE Management Activity Comments
The Director, TMA, agreed and stated that the CORT Tool will be fully implemented
within 30 days.

Our Response
Comments from the Director, TMA were responsive. No further comments are required.




                                       15
     c. Establish quality assurance procedures that require:

           (1) Verification that the acquisition career manager review position
description designations to validate the accuracy, and identify and include
acquisition workforce designations, certification level required, and critical
acquisition position designations, if applicable. The acquisition career manager
should review position descriptions annually and before recruitment,
reorganization, or when duties and responsibilities of acquisition workforce
positions change. Pending the results of the review, personnel from TRICARE
Management Activity Human Resources Division should revise position descriptions
as necessary.

TRICARE Management Activity Comments
The Director, TMA, agreed and stated that, within 60 days, TMA will establish quality
assurance procedures to review all PD designations, and map them to current job
requirements for 100 percent of its acquisition workforce. In addition, for those PDs that
require revision, all revisions will be completed within 6 months of identification. TMA
will also review all acquisition positions annually.

Our Response
Comments from the Director, TMA were responsive. No further comments are required.

          (2) Verification that the TRICARE Management Activity workforce and
all mandatory critical acquisition positions and key leadership positions are
reviewed annually.

TRICARE Management Activity Comments
The Director, TMA, agreed and stated that, within 60 days, TMA will establish quality
assurance procedures review all acquisition positions annually.

Our Response
Comments from the Director, TMA were responsive. No further comments are required.

            (3) Verification that all acquisition workforce personnel designated as
critical acquisition positions or key leadership positions are members of the Defense
Acquisition Corps before TRICARE Management Activity places them into the
position and sign a tenure agreement for a minimum of 3 years.

TRICARE Management Activity Comments
The Director, TMA, agreed and stated that, within 60 days, TMA will establish quality
assurance procedures to review all CAPs or KLPs before placement for membership in
the Defense Acquisition Corps.




                                        16
Our Response
Comments from the Director, TMA were responsive, and the proposed actions met the
intent of the recommendation. Although TMA did not address ensuring that all personnel
in CAPs or KLPs sign tenure agreements when outlining the specifics of their quality
assurance plan, the Director, TMA, agreed with all findings and stated they would correct
all identified deficiencies within the next 12 months. We expect that with the correction
of all identified deficiencies, TMA will include in its quality assurance procedures the
verification that all CAPS or KLPS sign a tenure agreement. No further comments are
required.

          (4) Verification that contracting officers designate properly trained
contracting officer’s representatives before the contract award.

TRICARE Management Activity Comments
The Director, TMA, agreed and stated that, within 60 days, TMA will establish quality
assurance procedures to define a process for verification of each COR’s signature and
date on all COR designation letters before any contract award. Additionally, the
Director, TMA, stated that the CORT Tool will be fully implemented within 30 days.

Our Response
Comments from the Director, TMA were responsive. The CORT Tool allows users to
identify available and qualified CORs and tracks all training completed by the COR.
Additionally, the CORT Tool will not allow appointment of a COR to a contract if the
COR is missing the required training. No further comments are required.

          (5) Verification that contracting officer’s representatives sign and date
contracting officer’s representative designation letters before the contract award.

TRICARE Management Activity Comments
The Director, TMA, agreed and stated that within 60 days, TMA will establish quality
assurance procedures that will define a process for verification of each CORs signature
and date on all COR designation letters before the contract award.

Our Response
Comments from the Director, TMA were responsive. No further comments are required.

2. We recommend that the Under Secretary of Defense for Acquisition, Technology,
and Logistics, perform a comprehensive review of TRICARE Management
Activity’s compliance with Recommendation 1.

Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments
The Assistant Secretary of Defense for Acquisition responded on behalf of the
USD(AT&L) and partially agreed with the recommendation. The Assistant Secretary
stated TMA’s leadership and new acquisition career management team are working




                                        17
diligently to improve compliance with acquisition workforce policy and COR
requirements. However, the Assistant Secretary stated the recommendation should
identify the Under Secretary of Defense for Personnel and Readiness as the lead for the
recommended review and would provide support to the Under Secretary of Defense for
Personnel and Readiness, as needed.

Our Response
Comments from the Assistant Secretary of Defense for Acquisition were partially
responsive. DoD Directive 5136.12, “TRICARE Management Activity (TMA),”
May 31, 2001, established TMA as a DoD Field Activity of the Under Secretary of
Defense for Personnel and Readiness. We acknowledge that chain-of-command
responsibilities for TMA reside with the Under Secretary of Defense for Personnel and
Readiness. However, section 1702, chapter 87, title 10, United States Code provides that
the USD(AT&L) must carry out all powers, functions, and duties of the Secretary of
Defense with respect to the DoD acquisition workforce, to include ensuring the effective
management of persons serving in the Department’s acquisition positions and the
uniform implementation of Department-wide acquisition workforce policies and
procedures. While the Assistant Secretary agreed with the intent of the recommendation,
congressional legislation assigns primary responsibility for the Department’s acquisition
workforce to the USD(AT&L). Therefore, we maintain that the USD(AT&L) should
perform this review. Additionally, the USD(AT&L) possesses the subject matter
expertise to perform this type of review and can provide an independent, objective
assessment of TMA’s compliance with Recommendation 1. We request that the Under
Secretary of Defense for Acquisition, Technology, and Logistics, reconsider his position
and provide additional comments in response to the final report.




                                       18
Appendix A. Scope and Methodology
We conducted this performance audit from February 2012 through February 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed applicable regulations: sections 1701, 1702, and 1733, chapter 87, title 10,
United States Code; Defense Federal Acquisition Regulations System 201.602-2; DoD
instructions, directives, and memorandums; and the TMA Acquisition Career
Management Program Handbook, February 2011, to identify guidance related to the
acquisition workforce.

Acquisition Workforce
We used statistical sampling procedures to determine whether the TMA acquisition
workforce was adequately identified, trained, and certified. We contacted officials from
TMA, Falls Church, Virginia; TMA, Aurora, Colorado; OUSD(AT&L), Arlington,
Virginia; DAU, Fort Belvoir, Virginia; and Uniformed Services University of Health
Sciences, Bethesda, Maryland, to obtain documentation of the workforce and training
requirements for personnel occupying AT&L Workforce positions at TMA. We
reviewed hard copy PDs and PDs from Fully Automated System for Classification
(FASCLASS) to determine if PDs included critical acquisition designators and
certification requirements. We also reviewed position waivers and training certifications
for each item in our statistical sample. See Appendix B for detailed results on the
statistical sample.

Critical Acquisition Positions and Key
Leadership Positions
We compared critical designations on PDs for each item in our statistical sample and
compared them to the TMA-designated CAP and KLP list. See Appendix B for detailed
results on the statistical sample. We reviewed the TMA organizational chart and staffing
documents and compared them to a list of TMA-designated CAPs and KLPs to determine
who should have been designated as CAPs and KLPs. We also reviewed an Acquisition
Corps membership list from the Acquisition Training Application System and compared
it to the list of TMA-designated CAPs and KLPs. We used this information to determine
which CAPs and KLPs belonged to the Acquisition Corps. Finally, we reviewed tenure
agreements, position waivers, and training certifications for each CAP and KLP.

Contracting Officer’s Representatives
We determined whether TMA designated properly trained CORs to TMA-funded
contracts. We reviewed the Contract Management Information Database (CMID) run
and compared TMA’s deployment plan and its actual implementation of the CORT Tool.
For a nonstatistical sample of 12 contracts, we determined whether TMA contracting




                                      19
officers properly designated fully trained CORs before the contract award. We reviewed
contract files to include COR nomination letters, COR designation letters, and COR
training certificates TMA personnel provided. In addition, we downloaded contracts
from Electronic Document Access to verify contract award dates and COR duties. We
limited our review of contracts to contract instruments type “C” and “D” TMA awarded
and funded after USD(AT&L) issued the DoD Memorandum, “DOD Standard for
Certification of Contracting Officer’s Representatives (COR) for Service Acquisitions,”
March 29, 2010. Type “C” contracts exclude indefinite delivery contracts, sales
contracts, and contracts placed with or through other Government departments or
agencies or against contracts placed by such departments or agencies and type “D”
contracts include indefinite delivery contracts. We did not audit the completeness of the
contract list listed in the CMID run that TMA provided. Specifically, we reviewed all
TMA Falls Church-awarded and funded contracts of what was presented in the CMID
run using the scope explained above, and we randomly selected three of the seven TMA
Aurora-awarded and funded contracts as presented in the Management Tracking
Reporting System using the scope above.

Use of Computer-Processed Data
From April 2012 through October 2012, we used computer-processed data from the
AT&L Member Analysis-TMA spreadsheet; copies of PDs from the FASCLASS; Career
Field Certification and Acquisition Corps Membership reports from DoD’s Acquisition
Training Application System; and CORs for Active Contracts/Orders spreadsheet from
the CMID.

We used the AT&L Member Analysis-TMA spreadsheet reviewed and corrected by the
deputy ACM to generate a statistical sample of the TMA-identified acquisition workforce
and to determine whether the TMA-identified acquisition workforce was in arrears for
attaining DAWIA certifications. Although we could not independently verify the
reliability of all this information from the Defense Civilian Personnel Data System, we
compared it with other available supporting documents to determine data consistency and
reasonableness. We compared each person’s name and career field/position in the AT&L
Member Analysis-TMA spreadsheet to hard copies of PDs and PDs obtained from
FASCLASS. We discuss the inconsistencies between the AT&L Member Analysis-TMA
spreadsheet and the PDs in the finding. We relied on the entrance on duty dates in the
spreadsheet because OUSD(AT&L) personnel reviewed the dates, including TMA’s, and
did not note any discrepancies in TMA’s dates. However, the USD(AT&L) tasked DoD
Components to review and correct any discrepancies in the Defense Civilian Personnel
Data System. We believe the information we obtained on the entrance on duty dates is
sufficiently reliable to accomplish our audit objective.

We used Career Field Certification and Acquisition Corps Membership reports that the
deputy ACM obtained from the DoD’s Acquisition Training Application system.
Although we could not independently verify the reliability of all this information, we
compared it with other available supporting documents to determine data consistency and
reasonableness. We tested the reliability of the data through interviews with the deputy
ACM who confirmed that personnel listed in the reports were personnel that she




                                          20
approved for certification or membership. Additionally, the deputy ACM provided
copies of DAWIA certifications to validate known discrepancies. From these efforts, we
believe the information we obtained is sufficiently reliable to accomplish our audit
objective.

We also used computer-processed data from the CMID system to identify a universe of
TMA-funded contracts. We did not audit the completeness of the contracts listed in the
CMID database that TMA provided. We used the Active Contracts/Order spreadsheet to
identify contracts that matched our criteria and we selected a nonstatistical judgmental
sample of contracts to review for designation and training of CORs assigned to those
contracts. For each contract in our judgmental sample, we relied on COR designation
letters, COR training certifications, and contract files to perform our analysis and draw
our conclusions.

Use of Technical Assistance
The DoD OIG Quantitative Methods Division assisted with the audit. See Appendix B
for detailed information about the work the Quantitative Methods Division performed.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (DoD IG) issued eight reports discussing the
acquisition workforce. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO-11-892, “Better Identification, Development, and Oversight Needed for Personnel
Involved in Acquiring Services,” September 28, 2011

GAO-11-50, “Opportunities Exist to Improve Management of DoD’s Electronic Health
Record Initiative,” October 6, 2010

GAO-11-22, “DOD’s Training Program Demonstrates Many Attributes of Effectiveness,
but Improvement Is Needed,” October 28, 2010

GAO-10-693, “Stronger Safeguards Needed for Contractor Access to Sensitive
Information,” September 10, 2010

GAO-08-360, “Army Case Study Delineates Concerns with Use of Contractors as
Contract Specialists,” March 26, 2008

DoD IG
DoD IG Report No. D-2012-033, “Award and Administration of Multiple Award
Contracts for Services at U.S. Army Medical Research Acquisition Activity Need
Improvement,” December 21, 2012




                                          21
DoD IG Report No. D-2010-051, “Defense Contract Management Agency Acquisition
Workforce for Southwest Asia,” April 8, 2010

DoD IG Report No. D-2008-045, “Controls Over the TRICARE Overseas Healthcare
Program,” February 7, 2008




                                       22
Appendix B. Statistical Sample
With assistance from the Quantitative Methods Division, we developed and reviewed a
statistical sample of the TMA-identified acquisition workforce to project the following
for the acquisition workforce personnel at TMA:

   •   the number and percentage of personnel who did not achieve the required
       DAWIA certification;
   •   the number and percentage of PDs that did not have critical acquisition
       designators;
   •   the number and percentage of PDs that did not have DAWIA certification
       requirements; and
   •   the number and percentage of PDs with CAP designations, but TMA did not
       identify as CAPs.

Population
The population consisted of 237 TMA-identified acquisition personnel with their required
career level. The deputy ACM reviewed the AT&L Member Analysis-TMA spreadsheet,
June 5, 2012, and provided the spreadsheet as a list of the TMA-identified acquisition
workforce. DAU e-mailed weekly reports of this spreadsheet to the deputy ACM.

Sample Plan
We used a stratified sampling design for this review. We stratified the population into
three strata, based on career level and selected the following sample from the AT&L
Member Analysis-TMA spreadsheet. See Table B-1 for details of the strata and sample
sizes used in the review.

         Table B-1. Population of Acquisition Workforce Personnel at TMA
                 Stratum                  Population Size          Sample Size
        Career Level I                          20                     14
        Career Level II                         93                     45
        Career Level III                       124                     51
        Totals                                 237                    110

Of the 110 in our sample, we did not review 9 personnel because we found that they left
or were not part of the acquisition workforce personnel at TMA. The remaining 101 that
we reviewed were representative of the career levels in the population and did not affect
our statistical projections.

Statistical Projection and Interpretation
In the paragraphs below, we detail our projections and interpretations for all four
statistical projections made in the audit report.




                                        23
Personnel Did Not Achieve the Defense Acquisition Workforce
Improvement Act Certification
We determined the number of personnel in the population that did not achieve the
required DAWIA certification. We compared the information received from the AT&L
Member Analysis-TMA spreadsheet for each member of the TMA-identified acquisition
workforce in our sample to the acquisition workforce member’s hardcopy DAWIA
certification or the Career Field Certification report from DoD’s Acquisition Training
Application System. We also calculated whether the number of days surpassed the
applicable 24- or 40-month requirement to obtain certification, using the entrance on duty
dates received in the AT&L Member Analysis-TMA spreadsheet, as of August 31, 2012.
Based on our review of the sampled personnel, we calculated the projection at the
90-percent confidence level. See Table B-2.

            Table B-2. Statistical Projections of Personnel Who Did Not
                        Achieve the DAWIA Certification
                            Lower Bound       Point Estimate      Upper Bound
        Rate                 16.1 percent      22.1 percent        28.1 percent


        Number                    38                 52                 67



From the TMA-identified population of 237 acquisition workforce personnel, we are
90-percent confident that the number of personnel who did not achieve the required
DAWIA certification was between 38 and 67 personnel, and the personnel rate was
between 16.1 percent and 28.1 percent. The point estimate was 52 personnel who did not
achieve the required DAWIA certification or 22.1 percent.

Position Descriptions Did Not Have Critical
Acquisition Designators
To determine the number of PDs that did not have critical acquisition designators, we
compared the information received from the AT&L Member Analysis-TMA spreadsheet
for each member of the TMA-identified acquisition workforce in our sample to the
member’s PD. PDs from FASCLASS indicated yes, no, or a blank field, for whether the
position was designated as an acquisition workforce position. For PDs not obtained from
the system, we used our professional judgment to determine whether the PD should be
designated as an acquisition workforce position. Based on our review, we calculated the
projection at the 90-percent confidence level. See Table B-3.




                                         24
            Table B-3. Statistical Projections of PDs That Did Not Have
                         Critical Acquisition Designators
                          Lower Bound       Point Estimate     Upper Bound
        Rate               22.9 percent      29.3 percent       35.8 percent

        Number                   54                70                85



From the TMA-identified population of 237 acquisition workforce personnel, we are
90-percent confident that the number of PDs that did not have critical acquisition
designators is between 54 and 85 PDs and the rate was between 22.9 percent and
35.8 percent. The point estimate was 70 PDs that did not have critical acquisition
designators or 29.3 percent.

Position Descriptions Did Not Have Certification Requirements
To determine the number of PDs that did not have DAWIA certification requirements, we
compared the information received from the AT&L Member Analysis-TMA spreadsheet
for each member of the TMA-identified acquisition workforce in our sample to the
member’s PD. The PDs should have included a statement for the required DAWIA
certification. Based on our review, we calculated the projection at the 90-percent
confidence level. See Table B-4.

            Table B-4. Statistical Projections of PDs That Did Not Have
                            Certification Requirements
                          Lower Bound       Point Estimate     Upper Bound
        Rate               28.4 percent      35.1 percent       41.8 percent


        Number                   67                83                99



From the TMA-identified population of 237 acquisition workforce personnel, we are
90-percent confident that the number of PDs that did not have DAWIA certification
requirements is between 67 and 99 PDs and the rate was between 28.4 percent and
41.8 percent. The point estimate was 83 PDs that did not have DAWIA certification
requirements or 35.1 percent.




                                      25
Position Descriptions With Critical Acquisition Position
Designations, but Not Identified by TRICARE Management
Activity as Critical Acquisition Positions
To determine the number of PDs with CAP designations, but TMA did not identify as
CAP for the acquisition workforce personnel, we compared the information received
from the AT&L Member Analysis-TMA spreadsheet for each member of the TMA-
identified acquisition workforce in our sample to the members’ PDs. The PDs from
FASCLASS indicated yes, no, or a blank field, for CAP. For PDs not obtained from the
system, we looked for the phrase “this is a critical acquisition position.” Based on our
review, we calculated the projection at the 90-percent confidence level. See Table B-5.

         Table B-5. Statistical Projections of PDs With CAP Designations,
                       but TMA Did Not Identify as CAPs
                            Lower Bound       Point Estimate      Upper Bound
        Rate                 9.0 percent       14.2 percent       19.4 percent


        Number                    21                34                 46



From the TMA-identified population of 237 acquisition workforce personnel, we are
90-percent confident that the number of PDs with CAP designations for the acquisition
workforce personnel at TMA, but TMA did not identify as CAP, are between 21 and
46 PDs, and the error rate was between 9.0 percent and 19.4 percent. The point estimate
was 34 PDs with CAP designations for the acquisition workforce personnel at TMA, but
TMA did not identify as CAP or 14.2 percent.




                                        26
Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments




                  Click to add JPEG file




                                   27
TRICARE Management Activity Comments





               Click to add JPEG file




                          28
Click to add JPEG file




                29
Click to add JPEG file




             30
